              The Postal Service’s Share of
              CSRS Pension Responsibility




                            January 20, 2010




Sponsored by U.S. Postal Service Office of Inspector General
             Risk Analysis Research Center
             Report Number: RARC-WP-10-001
January 20, 2010



The following paper demonstrates that the current system of funding the Postal
Service’s Civil Service Retirement System pension responsibility is inequitable and has
resulted in the Postal Service overpaying $75 billion to the pension fund. If this amount
were returned to the Postal Service, it would create a pension surplus that could be
transferred to the Postal Service’s health benefits fund. The transferred amount would
fully meet all of the Postal Service’s accrued retiree health care liabilities and eliminate
the need for the required annual payments of more than $5 billion. Also, the health
benefits fund could immediately start meeting its intended purpose — paying the annual
payment for current retirees. This payment was $2 billion in 2009.

For the third time, the Postal Service has been overcharged for its pension obligations.
In 2002 it was determined the Postal Service would overfund CSRS by $78 billion.
Legislation in 2003 corrected this overfunding. Then it was determined the Postal
Service was overcharged $27 billion for CSRS military service credits. In 2006 these
funds were returned to the Postal Service by Congress and the surplus was used to
fund retiree health care liabilities.

This paper is part of a series my office has developed on disadvantageous
entanglements between the Postal Service and the federal government. The first,
Estimates of Postal Service Liability for Retiree Health Care Benefits, showed the Postal
Service will have overfunded its retiree health care obligations by 2016 under a more
normally-accepted assumption of the health care trend rate. The second, Federal
Budget Treatment of the Postal Service, described the adverse impact of budget
scoring on the Postal Service’s finances and legislative reforms.

The common theme of these reports is that the legacy entanglement between the
Postal Service and the federal government has adversely affected the Postal Service’s
financial position, hindered its ability to operate efficiently in a business-like matter, and
retarded its transformation under the Postal Accountability and Enhancement Act.

The Postal Service was intended to be self-sufficient. More importantly, ratepayers
should pay no less and no more than what is required to fund the Postal Service’s
operations. Now, as the Postal Service faces a challenging future, it is particularly
important that the Postal Service’s responsibilities be clearly delineated and separated
from those of the federal government. The true costs of funding postal operations ought
to be absolutely clear.




David C. Williams
Inspector General
U.S. Postal Service Office of Inspector General                                                     January 20, 2010
The Postal Service’s Share of CSRS Pension Responsibility                                           RARC-WP-10-001




    The Postal Service’s Share of CSRS Pension Responsibility


When the Post Office Department became the Postal Service on July 1, 1971, there
was no change to postal employees’ retirement benefits. Employees continued to
participate in the Civil Service Retirement System (CSRS), and the Postal Service
continued to make the same contributions that federal agencies did to the Civil Service
Retirement and Disability Fund.1 The CSRS had historically been underfunded by
agency contributions. As a result, the Postal Service was required to increase the
funding of its employees’ pensions several times.

The Postal Service is currently responsible for meeting any CSRS liability for employees
who started after 1971. For employees with service both before and after the Postal
Service’s establishment, the federal government and the Postal Service share
responsibility for CSRS pensions. The federal government pays for service through
1971, and the Postal Service pays for service after 1971.

Responsibility for paying the CSRS costs resulting from inflationary salary increases
since July 1, 1971, shifted from the federal government to the Postal Service by statute
in 1974. In the late 1980s and early 1990s, a series of laws obligated the Postal
Service to fund retiree cost-of-living adjustments (COLAs) since 1971.

Even though the Postal Service was making the newly required payments towards
funding its CSRS liabilities in full, no one calculated how well it was meeting this goal
until the Government Accountability Office (GAO) drew attention to the issue.2 The
Office of Personnel Management (OPM) then evaluated the Postal Service’s assets and
liabilities in 2002 and discovered that the Postal Service would overfund its CSRS
obligations by nearly $78 billion unless the required payments were reduced to
reasonable levels.3 The Postal Service’s CSRS contributions had earned an interest
rate much higher than the 5 percent assumed by OPM, resulting in a large surplus.

OPM established assumptions about how the Postal Service and the federal
government would divide the CSRS obligations for postal employees who worked
before and after July 1, 1971.4 Under OPM’s methodology, the Postal Service is
responsible for all pay increases since 1971. OPM assumes no responsibility for
inflationary increases to salaries from the Post Office Department era. In effect, OPM

1
  The Postal Reorganization Act, however, did require the Postal Service to pay administrative costs to the Civil
Service Commission, the forerunner of the Office of Personnel Management. This requirement was later removed.
2
  GAO, United States Postal Service: Information on Retirement Plans, (GAO-02-170, December 2001).
3
  The amount of the overfunding was initially estimated as $71 billion and later revised to $78 billion. In addition,
OPM’s estimate made the Postal Service responsible for CSRS military service credits. The GAO reported that the
overfunding increased to $105 billion if the federal government retained responsibility for CSRS military service
credits. The Postal Accountability and Enhancement Act returned the amount the Postal Service had been
overcharged for CSRS military service credits to the Postal CSRS Fund.
4
  This allocation of CSRS liabilities concerns employees with service prior to 1971.


                                                           1
U.S. Postal Service Office of Inspector General                               January 20, 2010
The Postal Service’s Share of CSRS Pension Responsibility                     RARC-WP-10-001


calculates the federal government’s share for these employees as if they retired in 1971
at their 1971 salaries.

Under the current OPM system for federal retirees, CSRS retirees receive a percentage
of their highest 3-year average salary for every year they served. Thus, the critical
factors for determining the size of the annuity are years of service and the high-3 salary.
The fact that lower salaries were received early in an employee’s career is irrelevant to
the final pension calculation, because salaries increase throughout that career. This
method of calculating the annuity is highly suggestive that years of service is the
appropriate basis for allocating CSRS pension responsibility.

The U.S. Postal Service Office of Inspector General (OIG) commissioned the actuarial
firm Hay Group to review the allocation of CSRS liabilities between the Postal Service
and the federal government. The following report, Evaluation of the USPS Postal CSRS
Fund for Employees Enrolled in the Civil Service Retirement System, describes the
results of Hay Group’s analysis.

Several key points emerge from the report and the OIG’s analysis:

    •   OPM’s use of years of service and the high-3 salary as the basis for determining
        CSRS pension benefits strongly suggests that responsibility for CSRS pension
        payments should be divided between the Postal Service and the federal
        government based on years of service.

    •   The current methodology used to allocate CSRS obligations for employees with
        service prior to July 1, 1971, is not based on years of service and is inequitable
        to the Postal Service. For example, Hay Group shows how the Postal Service
        could be responsible for 70 percent of the pension of an employee who worked
        only 50 percent of his or her career for the Postal Service.

    •   Every time postal employees receive a pay increase, their CSRS benefits,
        including any earned at the Post Office Department, grow in value. The Postal
        Service must pay for this increase not only for post-1971 service but also for the
        years of service before 1971. An allocation methodology that assumes
        employees will receive no pay increases — not even to offset inflation — is not
        reasonable.

    •   Furthermore, had new pension plans been created for postal employees on
        July 1, 1971, and the Postal Service made responsible for all liabilities, it would
        have paid less than under the current methodology. The Postal Service would
        not have had to fund the additional liability that results when a pay raise
        increases the value of the years of service performed for the Post Office
        Department.

    •   It is instructive that OPM uses a years-of-service methodology to allocate the
        cost of retiree health care premiums for retirees who split their careers between
        the Post Office Department and the Postal Service.


                                                   2
U.S. Postal Service Office of Inspector General                                                 January 20, 2010
The Postal Service’s Share of CSRS Pension Responsibility                                       RARC-WP-10-001


    •   Allocating pension responsibility on a years-of-service basis would align the
        pension methodology OPM uses with the methodology OPM uses for retiree
        health care obligations. Currently, they are at odds with each other as they are
        applied to the Postal Service.

    •   Had the more equitable years-of-service allocation methodology been used to
        determine the value of the Postal CSRS Fund, the OIG estimates its value on
        September 30, 2009, would have been approximately $273 billion rather than
        $198 billion — a difference of $75 billion.5

    •   It has been determined that a $10 billion unfunded liability currently exists for the
        CSRS pension fund. Reducing the $75 billion overpayment by $10 billion still
        leaves a $65 billion surplus.

    •   If the $65 billion pension surplus were transferred into the Postal Service Retiree
        Health Benefits Fund and combined with the $35 billion already set aside, the
        total value of the health benefits fund would grow to $100 billion. Moreover, even
        at 5 percent interest, the balance of the fund would increase $5 billion or more
        each year.

    •   The $100 billion balance in the retiree health benefits fund would be more than
        sufficient to cover the $87 billion OPM estimates the Postal Service has accrued
        in retiree health care liability as of the end of 2009. No further payments to the
        fund would be needed to cover this liability.

    •   Since all of the Postal Service’s accrued liabilities for retiree health benefits
        would be fully funded, the seven remaining annual payments to the retiree health
        benefits fund, which average $5.6 billion each, could end.

    •   In addition, Postal Service payments for the health benefit premiums of current
        retirees could start coming from the retiree health benefits fund immediately.

    •   The annual evaluation of the Postal Service’s retiree health benefit assets and
        liabilities would continue, and the Postal Service could be assessed if there were
        any future unfunded liability.

The Postal Service was intended to be an independent, self-sufficient entity, yet during
the period when postal rates were set to cover costs, citizens and businesses were
charged far in excess of what was needed to fund CSRS benefits. Today, the Postal
Service continues to be assigned an unfair share of CSRS liabilities. Postal ratepayers
should not be burdened with federal liabilities. Instead, they should be credited for their
previous overpayments. Ending the unfair allocation of CSRS liabilities would result in a

5
  Hay Group estimates the difference in the value of the Postal CSRS Fund as of September 30, 2006, to be
$58.7 billion. The OIG’s estimate extends Hay Group’s analysis to 2009. Both estimates only measure the change in
the value of the Postal CSRS Fund and do not include the reduction in liability from allocating a smaller share of
CSRS payments to the Postal Service in the future. This change in liability would further increase the Postal
Service’s CSRS surplus.


                                                        3
U.S. Postal Service Office of Inspector General                               January 20, 2010
The Postal Service’s Share of CSRS Pension Responsibility                     RARC-WP-10-001


CSRS surplus that could be used to fully discharge accrued retiree health care
liabilities. This would put the Postal Service on a sound financial footing. All of its
current obligations to its retirees (both pension and health care) would be fully funded.

Freeing the Postal Service from unjustified legacy costs is critical if the Postal Service is
to have the agility it needs to face an uncertain future. A new, equitable CSRS cost
allocation methodology should be established based on years of service. The resulting
CSRS surplus can then be transferred into the retiree health benefits fund. Such a
transfer is not unprecedented. A similar transfer happened in 2007 and is scheduled to
occur for any CSRS surplus in 2015.




                                                   4
                                         January 11, 2010


                                         U.S. Postal Service
                                         Evaluation of the USPS Postal CSRS Fund for
                                         Employees Enrolled in the Civil Service
                                         Retirement System




Submitted by:



4301 N. Fairfax Drive
Suite 600
Arlington, VA 22203
Phone: 703-841-3100
Fax: 703-841-3108



© 2009 Hay Group. All rights reserved.                                          www.haygroup.com
Contents


I.      EXECUTIVE SUMMARY ............................................................................................................... 1 

II.     BACKGROUND ............................................................................................................................... 3 

III.  CALCULATION OF POSTAL SERVICE LIABILITY ................................................................ 6 

IV.  PRACTICAL EXAMPLES OF THE USE OF THE OPM METHODOLOGY ........................... 9 

V.  AN HISTORICAL EXAMPLE OF THE IMPACT OF AN UNFAIR ALLOCATION 
METHODOLOGY ................................................................................................................................... 14 

VI.  HISTORICAL EXAMPLES OF THE USE OF AN ALTERNATIVE METHODOLOGY ...... 16 

VII.  FINANCIAL IMPACT ................................................................................................................... 18 

APPENDIX A – CALCULATIONS UNDER A YEARS OF SERVICE METHODOLOGY ............. 22 

APPENDIX B – LETTER FROM OPM IN RESPONSE TO THE POSTAL SERVICE’S 2004 
REQUEST TO REVISE THE PENSION LIABILITY ALLOCATION METHODOLOGY ............. 27 




                                                                                                                                     www.haygroup.com
 I.     EXECUTIVE SUMMARY
The United States Postal Service (USPS) and the Federal government share responsibility for the
Civil Service Retirement System (CSRS) pension obligations of postal employees who were
hired prior to the establishment of the Postal Service on July 1, 1971, and continued working
after 1971. The current method of allocating these obligations, as developed by the Office of
Personnel Management (OPM), is inequitable to the Postal Service. As demonstrated in this
paper, for employees who worked half of their careers with the United States Post Office
Department (USPOD) and half with the USPS, the Postal Service is assigned approximately 70
percent of the cost and the Federal government 30 percent. For an employee who worked 30
years, 20 years before 1971 and 10 years with the USPS, the Postal Service is assigned 50
percent of the cost.

Under the current methodology, the Federal government’s portion of the liability is calculated
using employees’ salary levels as of June 30, 1971. Since the highest salaries earned over a
career are the only salaries used to calculate the amount of an annual CSRS pension, 1971 salary
levels should not be considered in the allocation of liabilities. The methodology currently
employed results in a significantly higher proportion of the liability being placed upon the Postal
Service than would be the case if other, more equitable approaches were to be used.

In a similar manner, pension obligations for District of Columbia (D.C.) employees were
transferred from the Federal government to the D.C. government without sufficient funds to
cover salary increases. The resulting obligation, described in a report by the Brookings
Institution as a “massive, federally created pension liability”, threatened to bankrupt the city.
Ultimately, the pension liabilities associated with D.C. employees’ prior Federal service were
returned to the Federal government.

Instead of using OPM’s methodology, a more equitable and financially sustainable “years of
service” methodology could be used to allocate liabilities. In this case, the total pension liability
for each beneficiary would be allocated based on the number of years of service rendered to each
entity. This approach would be consistent with the methodology OPM applied for cost-of-living
adjustments (COLAs) prior to the enactment of Public Law (P.L.)108-18 in 2003.

The Postal Service appealed to the CSRS Board of Actuaries on the use of frozen 1971 salaries
for the allocation of obligations between the USPOD and USPS. The Board noted that the
approach used was common practice in the private sector and upheld the use of the OPM



 1/27                                                                             www.haygroup.com
methodology. However, unlike the private sector, the USPS did not and does not have the ability
to modify the pension benefit levels earned after 1971. Furthermore, typical private sector
practice on sales and acquisitions includes asset purchases where other elements in the
transaction compensate for legacy pension obligations.

This paper identifies private sector situations where continuity of business with the same
employees receiving the same benefits was a key consideration for the “new” employer – in
situations similar to the USPOD/USPS transition. The private industry examples are in the
telecommunications industry which, like the USPS, provides a utility service to a national set of
customers and relies on continuity of labor contracts to ensure uninterrupted service. In both
situations, the pension assets transferred to the new employer were sufficient to cover the
benefits earned by the former employer with allowance for projected salary increases to
retirement.

Using this more equitable allocation methodology, the value of the Postal CSRS Fund, as of
September 30, 2006, would increase from $207.6 billion to $266.3 billion, a difference of $58.7
billion.




 2/27                                                                          www.haygroup.com
II.     BACKGROUND
The United States Postal Service was established on July 1, 1971 as an independent
establishment of the Executive branch. Prior to its reorganization as an independent government
entity, the Postal Service had been a line agency of the Federal government known as the United
States Post Office Department (USPOD).

Employees of the USPOD who were participants in the CSRS remained covered for retirement
benefits when they became employees of the Postal Service.

Pension benefits are provided to employees of the USPOD and the Postal Service under CSRS
based on their combined service. The benefit paid to retirees is a function of the employee’s
final average salary as well as the number of years of employment. Employees contribute a
fixed percent of their salary towards the cost of the benefit and the employer funds the balance of
the cost. Employees who were participants in the CSRS are generally not participants in the
Social Security system.

Prior to 2003 the Postal Service’s funding obligations were governed by three requirements. The
first requirement, which was the same funding requirement as other Federal agencies, was an
employer contribution or Normal Cost amount. The Normal Cost is the amount deemed
sufficient to fund the benefit earned in the year, based on the employee’s current salary. The
Normal Cost contribution was determined using an actuarial funding model that did not
anticipate future pay increases.

The second requirement took effect in 1974 with the passage of P.L. 93-349. This law required
that, in addition to the Normal Cost payments, the Postal Service would be required to fund the
increases in pension liabilities resulting from pay increases. As the pension benefit is based on
the employees’ final average salary, when employees received a salary increase, this increased
the value of the accrued benefit. This increase in liability is attributable to the pay increase
applied to benefits earned in all prior years. These increases in liability were funded by level
dollar payments over 30 years from the date of each measurement.

The third pension funding obligation became effective in 1989 through the passage of P.L.
101-239 and in 1990 through the passage of P.L. 101-508. Under the statutes, the Postal Service
was required to fund, in 15 equal annual payments, increases in pension liabilities resulting from
cost-of-living allowances (COLAs) granted to Postal Service retirees in 1990 and later years.
For employees who had been employed by the USPOD prior to 1971, this liability would be split
between the Federal government and the Postal Service based on the number of years of



 3/27                                                                           www.haygroup.com
employment under each entity. Under P.L. 101-239, this obligation was effective upon the
Postal Service only for employees who retired after September 30, 1986. In 1990, P.L. 101-508
required that the Postal Service assume responsibility for this liability for all employees who had
retired since July 1, 1971 and to make retroactive payments for COLAs already paid by the
Federal government. In 1993, P.L. 103-66 made the Postal Service responsible for paying
interest on these retroactive payments.

The funding requirements were based solely on the liabilities accrued for pension benefits and
did not take into account actuarial gains or losses from investment earnings on the funds.

Chart 2.1 compares the actual annual return earned by the Postal Service’s share of the Civil
Service Retirement and Disability Fund (Postal CSRS Fund), to the assumed investment return
used in the measurement of the liabilities.


                                             Chart 2.1
              Actual Return Far Exceeded the Assumed
            Investment Earnings on the Postal CSRS Fund
                                    Actual             Assumed

   10%

    5%

    0%



                                                 Year

Prior to the public laws mentioned above, the funding of CSRS benefits for USPS employees
was based on a “static” actuarial model that did not take account of pay increases (prior to P.L.
93-349) or cost-of-living-allowances (prior to P.L. 101-239 as amended by P.L. 101-508) until
after they had been awarded. This funding model did not take account of the size of the Postal
CSRS assets in the CSRS fund.



 4/27                                                                           www.haygroup.com
Transition to Actuarial Funding

P.L. 108-18 was signed into law in April 2003. With its passage, the Postal Service CSRS
pension obligation was completely redefined. Under the new law, the Postal Service was
required to fund CSRS pension benefits based on a “dynamic actuarial model”. A “dynamic
actuarial model” anticipates the effect of inflation, which includes both increases in salary and
cost of living adjustments on pensions in payment.

For employees hired on or after July 1, 1971, the Postal Service would be responsible for all
CSRS benefits attributable to the service of its employees. For employees hired before July 1,
1971 who remained employed after the Postal Service’s reorganization, OPM was tasked with
the development of a method by which to allocate the cost of pension benefits between the
Federal government and the Postal Service.

Under the method developed by OPM, the first calculation is the total present value of future
pension benefits. OPM then allocates the total cost between the Postal Service and the Federal
government. The liability attributable to the Federal government is calculated as if employment
had terminated upon reorganization in 1971; this calculation is based on the years of service up
to June 30, 1971, and on the final salary earned as of June 1971. The Federal share is then
subtracted from the total pension obligation, and the remaining amount is allocated as the
responsibility of the Postal Service.

In 2004, the Postal Service requested that the method for allocating the CSRS pension liability
under P.L. 108-18 be reconsidered. The request was denied by the CSRS Board of Actuaries
based on the existence of P.L. 93-349. As previously stated, this statute, which was passed in
1974, required that the Postal Service finance all increases in retirement liabilities attributable to
all salary increases granted on or after July 1, 1971. The rationale behind this requirement was
that Congress has no control over the pay machinery in the Postal Service. The letter from the
Board of Actuaries is included in Appendix B.




 5/27                                                                              www.haygroup.com
III.    CALCULATION OF POSTAL SERVICE LIABILITY
The CSRS pension benefit amount received by each employee can be divided into portions
earned through each year of employment. The amount received for each year is calculated based
on the highest three consecutive salaries earned over an employee’s career at the USPOD or
Postal Service. Under current law, the Federal government’s obligation for each pre-1971 year
of service is calculated based on the salary earned as of June 30, 1971. The June 30, 1971 salary
will, in almost all cases, be less than the highest three consecutive salaries earned over an entire
career. In many cases, the average salary earned over a career can be significantly higher than
the June 30, 1971 salary. Under the described methodology, for pre-1971 service, there is a gap
between

    A. The pension amount calculated based on the June 30, 1971 salary, and

    B. The pension amount calculated based on overall career highest three consecutive salaries.

Item A above is the total liability which is allocated to the Federal government. Item B above is
the amount actually received by the beneficiary for pre-1971 service. Under the current
methodology, the liability associated with the gap between the two pension amounts is allocated
to the Postal Service. This gap exists due to two factors: pre-1971 employment, and post-1971
salary increases.

No Pay Increase Assumption

It is unrealistic to assume that employees would have had no pay increases after 1971 had they
remained employees of the USPOD. The enabling legislation that created the Postal Service
included provisions and protections that ensured employees were treated fairly and that their pay
and benefits remained comparable to the terms and conditions before postal reorganization.

Continuity of Service

The Postal Reorganization Act required that USPOD employees who were members of the
CSRS remain covered for pension purposes under CSRS. If the USPS had been granted the
freedom and flexibility to establish new and separate pension plans for its employees and provide
benefits only from July 1971, then the gap would not exist, instead, the employees would have
retired on smaller pensions.

As the gap described above is attributable to pre-1971 employment, the allocation of the
associated liability to the post-1971 employer is inequitable.



 6/27                                                                            www.haygroup.com
A Technical Description of the Calculation of an Annual CSRS Pension

There are three steps in the process of determining a CSRS employee’s annual pension benefit.

       1. The highest three consecutive annual salaries earned over an employee’s Postal Service
          career are averaged together. This average is referred to as the “high-three salary”.

       2. For each year employed, the high-three salary is multiplied by a specified percentage as
          follows. For each of the first five years of employment, the high-three salary is
          multiplied by 1.5 percent. For each of the next five years, the high-three salary is
          multiplied by 1.75 percent. For all subsequent years, the high-three salary is multiplied
          by 2 percent.

       3. The results from step two are added together to arrive at the annual pension benefit.1

The following table provides an illustration of the calculation. In this example, an employee
worked for 12 years with a high-three salary of $30,000.


                                           Table 3.1
                       Calculation of CSRS Annual Pension Benefit for
               Employee with 12 Years of Service and High-Three salary of $30,000
                              High-Three         Benefit
                 Year                                         Pension Amount
                                 Salary          Earned
                  (A)             (B)              (C)       (D) = (B) times (C)
                   1            $30,000           1.50%              $450
                   2            $30,000           1.50%              $450
                   3            $30,000           1.50%              $450
                   4            $30,000           1.50%              $450
                   5            $30,000           1.50%              $450
                   6            $30,000           1.75%              $525
                   7            $30,000           1.75%              $525
                   8            $30,000           1.75%              $525

1
  As a technical note, an employee’s maximum pension is equal to 80 percent of high-three
salary plus any amounts earned through unused sick leave at retirement. Thus if the calculation
described above results in a value which is greater than the high-three salary multiplied by
80 percent, the employee will receive an annual pension benefit equal to the high-three salary
multiplied by eighty percent, plus the pension amount earned through conversion of unused sick
leave.


    7/27                                                                           www.haygroup.com
                                       Table 3.1
                   Calculation of CSRS Annual Pension Benefit for
           Employee with 12 Years of Service and High-Three salary of $30,000
                          High-Three         Benefit
             Year                                         Pension Amount
                             Salary          Earned
              (A)             (B)              (C)       (D) = (B) times (C)
               9            $30,000           1.75%              $525
               10           $30,000           1.75%              $525
               11           $30,000           2.00%              $600
               12           $30,000           2.00%              $600
             Total                                              $6,075

In column (D) above, the high-three salary is multiplied by each of the yearly percentages. The
total value of $6,075 is the sum of the values in column (D) and is equal to the annual pension
benefit received.

When calculating the Federal share of the liability, OPM’s methodology uses a different high-
three salary. The high-three salary used is equal to the last salary earned in 1971. The Federal
share is then calculated by multiplying the revised high-three salary by each of the percentages
specified previously as applied to pre-1971 service. The Postal Service then pays the difference
between the pension benefit received and the Federal share.




 8/27                                                                         www.haygroup.com
IV.     PRACTICAL EXAMPLES OF THE USE OF THE OPM
        METHODOLOGY
While there have been many occasions in which retirement liabilities have been allocated
between two employers, there is no actuarial standard or statutory methodology to be utilized in
the process. This section of the report includes three examples of the practical implications of
the use of OPM’s allocation methodology. We believe these examples highlight the inequity of
the current arrangement.

Example 1:

A beneficiary had a high-three salary of $30,000 in 1986 and was employed for a total of 30
years, 15 years with the USPOD (prior to July 1, 1971) and 15 years with the Postal Service
(post-1971).

After 30 years, the benefit accrual is 56.25 percent of the high-three salary, as shown in the
following table.

                                          Table 4.1
                                  Accrual of Pension Benefit
                                       Under Example 1
                             Accrual        Years of      Benefit
                            Percentage      Service      Accrual
                              1.50%            5           7.50%
                              1.75%            5           8.75%
                              2.00%            20         40.00%
                               Total           30         56.25%


The pension earned is therefore 56.25% times $30,000, which is an annual benefit of $16,875 at
retirement.

Under the OPM approach, when calculating the Federal share of the liability, a different high-
three salary is used. The high-three salary used is equal to the June 1971 salary. For an
employee whose salary increased every year by 3.25 percent, the June 1971 salary would be
$19,165. The Federal share is then calculated by multiplying $19,165 by each of the percentages
specified previously. This calculation is done only for the years while employed by the USPOD.




 9/27                                                                         www.haygroup.com
                                         Table 4.2
               Calculation of the Federal Share of the Liability in Example 1
               Accrual Percentage Years of Service          Benefit Accrual
                     1.50%                   5                    7.50%
                     1.75%                   5                    8.75%
                     2.00%                   5                   10.00%
                      Total                  15                  26.25%

Of the total pension, the portion deemed to be the responsibility of the Federal government is
$5,031 (26.25% times $19,165). Thus while the beneficiary was employed by each entity for
equal number of years, 30 percent of the liability is allocated to the Federal government while
the remaining 70 percent is allocated to the Postal Service.

Chart 4.1 shows the annual pension for this employee after each year of service. The solid area
of the chart shows the amount of the annual pension allocated to the Federal government while
the marbled area shows the amount allocated to the Postal Service.




 10/27                                                                       www.haygroup.com
                                           Chart 4.1
               OPM Method Unfairly Allocates the Pension Benefit
100%
  90%       Although half of the employee 
  80%       service rendered was after July 
  70%        1971, the OPM methodology 
  60%       allocates 70 percent of the cost 
  50%                 to the USPS.
  40%
  30%
  20%
  10%
   0%



                  Federal Share                    Postal Service Share

After 30 years of service, the employee has earned an annual pension benefit of close to $17,000.
Upon retirement, the Federal government is responsible for $5,031 of the annual pension, or 30
percent as shown above. The illustration is based on annual salary increases of 3.25 percent.
The average actual salary increases after 1971 were substantially higher than 3.25 percent, as this
was a period of abnormally high inflation. Using actual salary increase rates lowers the Federal
share to 20 percent and increases the Postal Service share to 80 percent.

Example 2:

An employee had a high-three salary of $30,000, 30 years of service, was hired before July 1,
1971, and retired after July 1, 1971. Hay Group performed an analysis to determine, using
OPM’s methodology, the number of years of Federal service at which point 50 percent of the
total pension liability would be allocated to the Federal government and 50 percent to the Postal
Service. The result was that, for an employee with approximately 20 years of pre-1971, and 10
years of post-1971 service, the pension liability was split evenly. Thus, despite the fact that this



 11/27                                                                           www.haygroup.com
beneficiary’s employment under the Federal government was twice as long as employment under
the Postal Service, 50 percent of the pension liability would be allocated to the Postal Service.

Chart 4.2 shows the annual pension for this employee after each year of service. The solid area
of the chart shows the amount of the annual pension allocated to the Federal government while
the marbled area shows the amount allocated to the Postal Service.


                                          Chart 4.2
               OPM Method Unfairly Allocates the Pension Benefit
    100%
     90%        Although one‐third of the 
     80%        employee service rendered 
     70%        was after July 1971, the 
     60%        OPM methodology 
     50%        allocates half of the cost to 
     40%        the USPS.
     30%
     20%
     10%
         0%


                     Federal Share               Postal Service Share




 12/27                                                                         www.haygroup.com
Example 3:

An employee had a constant salary of $30,000, worked for 15 years prior to 1971, and worked
for 15 years after 1971. This employee’s high-three salary would equal $30,000 and a total
pension benefit of $16,875 would be earned. Using OPM’s methodology to allocate the liability,
47 percent of the total liability would be allocated to the Federal government, while 53 percent
would be allocated to the Postal Service. This uneven cost allocation occurs despite no salary
increases and despite employment periods of equal durations.

The CSRS formula for calculating beneficiaries’ yearly pensions is such that more dollar
amounts are earned toward the pension for later years of service. For each of the first 5 years of
service, 1.5 percent of the high-three salary is earned. For each of the next 5 years, a greater
amount, 1.75 percent, of the high-three salary is earned. For subsequent years, 2 percent of the
high-three salary is earned.

Table 4.3 illustrates this idea for a beneficiary with a high-three salary of $30,000.


                                          Table 4.3
                 Amount Earned Toward Annual Pension for Each Year of Service
                      For an Employee with a High-Three Salary of $30,000
                                Percent       High-Three Earned per Year of
                   Years
                                Earned          Salary            Service
                     1-5         1.50%          $30,000             $450
                    6-10         1.75%          $30,000             $525
                    11+          2.00%          $30,000             $600

For each of the first 5 years, the beneficiary earned $450 toward his annual pension. For each of
the next 5 years, he earned $525. For each subsequent year, he earned $600. Using OPM’s
methodology, the liability associated with years 1 through 15 is allocated to the Federal
government. Thus for each year of this beneficiary’s employment, the Postal Service would be
obligated to pay $600 toward his pension, while the Federal government would pay lesser
amounts for most years of service.




 13/27                                                                             www.haygroup.com
V.          AN HISTORICAL EXAMPLE OF THE IMPACT OF AN
            UNFAIR ALLOCATION METHODOLOGY
We are aware of at least one situation in which a new retirement plan sponsor assumed pension
responsibility from the Federal government and the allocation methodology used did not cover
the expected increase in employees’ salaries. The resulting impact was an increasing burden on
the plan sponsor that caused the financing cost of the arrangement to became unaffordable,
resulting in the need for a law change to transfer the liability back to the Federal government.

District of Columbia Government

Between 1916 and 1970, Congress established separate pension plans with funds deposited in the
U.S. Treasury for police officers and firefighters, teachers, and judges in the District of Columbia
(D.C.). The funding of these plans, however, was not actuarially sufficient to cover all of the
liabilities. At the commencement of home rule in 1975, the unfunded pension liability was equal
to $2 billion. By 1979, when the District of Columbia Retirement Reform Act (P.L. 96-122) set
up D.C. pension funds for these plans, the unfunded liability had grown to $2.65 billion.

The Retirement Reform Act committed the Federal government to make payments for 80 percent
of the liability for plan participants who retired normally prior to the start of home rule.2 D.C.
retained responsibility for the remaining pre-home rule liability and for all liability from
participants whose service continued under home rule. Participants with continuing service
accounted for the largest share of the unfunded liability, and D.C. was responsible for 76 percent
of the total unfunded liabilities.

As a result of the allocation methodology, the D.C. pension plans had a large unfunded liability
attributable to the past service. By 1996, even though D.C. paid far in excess of the normal cost
each year, the associated pension liability had grown to $5 billion mainly due to interest. The
required pension payments cost the city $337 million dollars, or nearly 8 percent of D.C.’s
general expenditures that year. Furthermore, the existence of a liability so proportionately large
made it difficult and expensive for the District government to borrow money. This liability had
been primarily incurred through service to D.C. when it was run as part of the Federal
government, so that at the start of home rule, the D.C. pension plans were already burdened by
unfunded liabilities. The large unfunded liability transferred to the D.C. government had created
an untenable financial burden which threatened to bankrupt the city.

2
    The Federal government was responsible for only 33.3 percent of disability retirements.



    14/27                                                                                     www.haygroup.com
The resolution to this problem came through the enactment of the National Capital Revitalization
and Self-Government Improvement Act of 1997 (P.L. 105-33). Under this act, the retirement
plans for police officers and firefighters and teachers were frozen as of June 30, 1997, and all
liabilities as of this date were transferred to the Federal government. D.C. created new pension
plans for these employees for service starting on or after July 1, 1997. The pension plan for
judges was transferred to the Federal government along with responsibility for the D.C. courts.
The Revitalization Act specifically noted that “the growth of the unfunded liabilities of the three
pension funds listed above did not occur because of any action taken or any failure to act that lay
within the power of the District of Columbia government or the District of Columbia Retirement
Board.”3




3
    P.L. 105-33, Sec. 11002(a)(4).



    15/27                                                                       www.haygroup.com
VI.      HISTORICAL EXAMPLES OF THE USE OF AN
         ALTERNATIVE METHODOLOGY
We are aware of several situations where the costs for pensionable service accrued prior to a
transfer date were determined using projected final salary at retirement, rather than the accrued
benefit at date of transfer. The primary goal of this alternative method was to ensure the ongoing
costs for the new plan sponsor were reasonable and affordable.

AT&T Corp. Spinoff of Lucent Technologies

Effective October 1, 1996, AT&T Corp. (“AT&T”) spun off certain operations to a stand-alone
company named Lucent Technologies, Inc, (“Lucent”). (Lucent has since merged with Alcatel
to form Alcatel-Lucent.) As of October 1, 1996, actuarial calculations were performed to
determine the amount of pension assets that would spin off from AT&T’s Group Pension Trust,
which held the assets of the AT&T Management Pension Plan and the AT&T Pension Plan, to a
pension trust established for the funding of Lucent’s two pension plans.

On September 30, 1996, both AT&T plans were in a surplus position based on the comparison of
fair market value of assets to projected benefit obligation. In Lucent’s 10-K disclosure as of
October 1, 1996, Lucent described that the pension obligations for Lucent’s active employees
and retirees would be transferred to Lucent’s pension plans and that assets of AT&T’s Group
Pension Trust would be divided between AT&T and Lucent trusts. In this way, “each plan’s
participating master trust receives the legally required amount to meet the minimum
requirements set forth in applicable benefit and tax regulations and a sufficient amount of
additional assets to ensure, at October 1, 1996, compliance with AT&T’s previously established
pension funding policy.”

The “minimum requirements” phrasing in the asset transfer description refers to requirements
under the Employee Retirement Income Security Act (ERISA) for all private employer pension
asset transfers, as specified in ERISA Section 4044 and related sections of the Internal Revenue
Code and regulations. Thus, the minimum amount of assets transferred to Lucent would meet
legal requirements.

The “compliance with AT&T’s previously established pension funding policy” part of the
description was based on a complex set of actuarial calculations involving stochastic modeling of
the plans’ assets. Basically, the funding goal for each AT&T pension plan was for each plan to
be fully funded (assets fully covering plan liabilities) with a certain probability in five years and
another probability in ten years, beginning at October 1, 1996. The asset transfer methodology


 16/27                                                                            www.haygroup.com
would determine the amount of assets as of October 1, 1996 necessary to meet these criteria,
separately for AT&T and Lucent, and separately by plan. To the extent that the total asset
amounts determined under the asset transfer methodology for each plan differed from the total
assets for each plan, the excess or deficit would be split evenly between AT&T and Lucent.

Based on the liability and asset amounts disclosed in Lucent’s 10-K as of October 1, 1996, the
total impact of the asset transfer methodology was to provide Lucent assets in excess of its total
projected benefit obligation, which, for plans featuring salary-based pension formulas, includes
the impact of future salary increases. As of September 30, 1996, AT&T’s total fair market value
of pension assets was $49.1 billion, compared with the projected benefit obligation of $35.1
billion. This spinoff ensured that the assets allocated to Lucent ($29.2 billion) were sufficient to
cover the pension benefits accrued through service with AT&T with salaries projected to
retirement ($20.8 billion), and that the ongoing cost for both accounting and funding purposes
did not strain the financial resources of the new Lucent company.

Subsequent Spinoff of Avaya from Lucent Technologies

A similar approach was used several years later when Lucent Technologies spun off Avaya. The
assets transferred to Avaya were sufficient to cover the cost of pensions based, not on the salary
at the date of the spin-off, but at the expected retirement date.




 17/27                                                                            www.haygroup.com
VII.     FINANCIAL IMPACT
There are other, more equitable, methodologies which can be used to allocate pension liabilities
between the Postal Service and the Federal government. One such methodology would be based
upon the proportion of total years of service which were rendered to the USPOD and the Postal
Service respectively. In this case, the percentage of the total number of service years which
were spent under the employment of the Federal government prior to July 1, 1971, would be
calculated. This percentage of the total pension (and therefore the total liability) would be
allocated to the Federal government. The same process would be used to calculate the portion of
the pension attributable to the Postal Service (and therefore the Postal Service liability). For
example, an employee who was hired 10 years prior to the establishment of the Postal Service
and who retired 30 years after its establishment has 40 years of service in total; 10 as a USPOD
employee and 30 as a Postal Service employee. Of the employee’s total pension benefit, 25
percent (10 / 40 = 25%) would be the responsibility of the Federal government, and 75 percent
(30 / 40 = 75%) would be the responsibility of the Postal Service.

This “years of service” approach is the same approach which is currently used in allocating the
health care premiums for retirees with both USPOD and USPS employment service periods.
OPM already calculates the years of service for each retiree and assigns the appropriate portion
of the employer premium to the USPS.

Hay Group calculated the value of the Postal CSRS Fund using the years of service
methodology. The calculation entailed the following process.

For the years 2005 through 2009, each year’s pension liability was allocated based on the actual
known percentages of the retiree healthcare premiums which OPM allocated between the Postal
Service and the Federal government. The share of the retiree healthcare premiums attributable to
the USPS (for post-1971 service) has increased steadily. For the years 1971 through 2004, the
percentage of the total liability allocated to the USPS was calculated as a flat percentage
decrease from the 2005 value to 0 percent in 1971. The rate of change was found to be just less
than 2 percent per year.

Using these proportions for allocating the CSRS pension benefits, Hay Group updated the
projection of the Postal CSRS Fund, using the actual employer and member contributions and
the actual annual investment returns.

Table 7.1 shows the results of these calculations on the Postal CSRS Fund. Note that the Postal
Liability would change too, however this analysis is limited to the analysis of the years of service



 18/27                                                                           www.haygroup.com
methodology on the Postal CSRS Fund. The first row shows the surplus determination using the
OPM methodology. The Postal CSRS Fund was found to be $207.6 billion, the Postal Liability
was determined to be $190.5 billion, resulting in a surplus of $17.1 billion that was transferred to
the Postal Service Retiree Health Benefits Fund (PSRHBF). The second row shows the surplus
determination using the years of service methodology. The Postal CSRS Fund is $266.3 billion,
subtracting the Postal Liability (determined using the OPM methodology) results in a surplus of
$75.8 billion, or $58.7 billion more than was transferred to the PSRHBF.

                                                 Table 7.1
                              Surplus Determination as of September 30, 2006
                                                 ($billions)
                                                   Postal CSRS    Postal
                                                                             Surplus
                                                        Fund     Liability
                    OPM Methodology                    $207.6     $190.5      $17.1
                    Years of Service Methodology       $266.3     $190.5      $75.8
                    Difference                          $58.7        -        $58.7

Chart 7.1 shows the progress of the Postal CSRS Fund under the OPM methodology and under
the years of service methodology.

                                                                Chart 7.1
                              Postal CSRS Fund based on OPM Calculation
                              Postal CSRS Fundbased on Years of Service Calculation
                    $300 
         Billions




                    $250                                                       $58.7 billion
                    $200 
                    $150 
                    $100 
                     $50 
                      $‐
                             1972
                                    1974
                                           1976
                                                  1978
                                                         1980
                                                                1982
                                                                       1984
                                                                              1986
                                                                                     1988
                                                                                            1990
                                                                                                   1992
                                                                                                          1994
                                                                                                                 1996
                                                                                                                        1998
                                                                                                                               2000
                                                                                                                                       2002
                                                                                                                                              2004
                                                                                                                                                     2006




 19/27                                                                                                                                www.haygroup.com
Table 7.2 shows the value of the Postal CSRS Fund (in $millions) under the two methodologies.
The line labeled “OPM Calculation” shows the yearly value of the Postal CSRS Fund as
calculated using OPM’s methodology. The line labeled “Years of Service Calculation” shows
the yearly value of the Postal CSRS Fund as calculated using a years of service methodology

                                          Table 7.2
          Value of Postal CSRS Fund as Calculated Under the OPM and Years of
                             Service Calculations ($millions)
                            Postal CSRS Fund based      Postal CSRS Fund based on
             Year
                              on OPM Calculation       Years of Service Calculation
             1972                     $925                         $925
             1973                     1,903                        1,892
             1974                     3,062                        3,027
             1975                     4,892                        4,819
             1976                     7,225                        7,100
             1977                     9,317                        9,171
             1978                    11,522                       11,382
             1979                    14,107                       14,009
             1980                    16,964                       16,967
             1981                    19,989                       20,186
             1982                    23,874                       24,319
             1983                    28,087                       28,843
             1984                    32,533                       33,702
             1985                    38,117                       39,843
             1986                    43,964                       46,396
             1987                    49,733                       52,998
             1988                    56,365                       60,674
             1989                    63,114                       68,662
             1990                    70,047                       77,043
             1991                    77,870                       86,575
             1992                    86,421                       96,980
             1993                    94,518                      107,403
             1994                   103,000                      118,306
             1995                   112,314                      130,221
             1996                   122,292                      142,991
             1997                   131,625                      155,147
             1998                   141,835                      168,482
             1999                   151,780                      181,675
             2000                   161,932                      195,283
             2001                   172,305                      209,376
             2002                   182,696                      223,705


 20/27                                                                      www.haygroup.com
                                         Table 7.2
          Value of Postal CSRS Fund as Calculated Under the OPM and Years of
                             Service Calculations ($millions)
                            Postal CSRS Fund based      Postal CSRS Fund based on
             Year
                              on OPM Calculation       Years of Service Calculation
             2003                   189,698                      234,890
             2004                   196,274                      245,758
             2005                   202,233                      256,195
             2006                   207,638                      266,320


As can be seen from Table 7.2, as of September 30, 2006, the Postal CSRS Fund had a value of
$266 billion using a years of service approach, compared with a value of $208 billion using the
OPM method.




 21/27                                                                       www.haygroup.com
APPENDIX A – Calculations Under a Years of Service
Methodology
This appendix provides details on the process used in calculating the value of the Postal CSRS
Fund using a years of service methodology.

Post Service employees participate in the Federal Employees Health Benefit Program (FEHBP).
The annual cost of the premiums is shared by the employer and the retiree. For retirees who were
first hired after July 1, 1971, USPS pays the full amount of the employer premium. For retirees
who were hired before July 1, 1971, the employer retiree medical premiums are shared between
the Federal government and the Postal Service. The portion allocated to the Postal Service is
determined using a years of service approach. Table A-1 shows, for the years 2005 through
2008, the total employer portion of the retiree medical premium for the month of March (labeled
Total Cost), the portion of the premium allocated to the Postal Service (labeled USPS Cost), and
the calculated percentage of the total cost which this allocation represents.

                                         Table A-1
           Historical Post-Retirement Medical Costs and the Amounts Allocated
                                   to the Postal Service
                                    (Amounts in $000s)
                Year             Total Cost       USPS Cost        USPS Percentage
                2005              $197,132         $127,380               65%
                2006              209,248          139,072                66%
                2007              211,895          144,271                68%
                2008              216,974          151,713                70%


The retiree medical premium costs were allocated using a years of service approach. In order to
allocate each year’s CSRS pension liability using a years of service approach, Hay Group used
the same percentages which were used to allocate the retiree medical premium. For example, for
the year 2005, as 65 percent of the retiree medical premium liability was allocated to the Postal
Service, Hay Group allocated 65 percent of the total 2005 pension cost to the Postal Service.

For the years 1971 through 2004, the percentage allocated to the Postal Service was determined
by a straightline interpolation. Upon its establishment in 1971, the Postal Service was
responsible for 0 percent of that year’s pension liability. If the Postal Service were responsible
for an additional 1.955 percent of the total liability every year, then in 2005, the Postal Service
would be responsible for 65 percent of the liability, which is the percentage that should be


 22/27                                                                          www.haygroup.com
allocated to the Postal Service for that year, based on the years of service cost allocation data as
shown in Table A-1.

Table A-2 shows the percentage of each year’s total CSRS pension liability allocated to the
Postal Service for the years 1972 through 2006 under the OPM calculation and the years of
service calculation.

                                       Table A-2
            Percentage of CSRS Pension Liability Allocated to the Postal Service
                 under the OPM and Years of Service Calculation Methods

                Year            OPM Calculation         Years of Service Calculation
                1972                   0.1%                           0.1%
                1973                   1.1%                           2.1%
                1974                   2.3%                           4.0%
                1975                   3.7%                           6.0%
                1976                   6.1%                           7.9%
                1977                   9.3%                           9.9%
                1978                  12.5%                          11.8%
                1979                  15.7%                          13.8%
                1980                  19.1%                          15.7%
                1981                  22.8%                          17.7%
                1982                  25.0%                          19.7%
                1983                  27.5%                          21.6%
                1984                  30.6%                          23.6%
                1985                  34.0%                          25.5%
                1986                  37.1%                          27.5%
                1987                  40.1%                          29.4%
                1988                  43.2%                          31.4%
                1989                  45.9%                          33.3%
                1990                  48.7%                          35.3%
                1991                  51.5%                          37.2%
                1992                  53.5%                          39.2%
                1993                  58.4%                          41.2%
                1994                  59.6%                          43.1%
                1995                  61.0%                          45.1%
                1996                  62.6%                          47.0%
                1997                  64.4%                          49.0%
                1998                  66.2%                          50.9%
                1999                  68.1%                          52.9%
                2000                  70.2%                          54.8%
                2001                  72.2%                          56.8%
                2002                  74.2%                          58.8%



 23/27                                                                           www.haygroup.com
                                              Table A-2
                   Percentage of CSRS Pension Liability Allocated to the Postal Service
                        under the OPM and Years of Service Calculation Methods

                          2003                    76.2%                               60.7%
                          2004                    78.6%                               62.7%
                          2005                    80.3%                               64.6%
                          2006                    81.9%                               66.5%


       Using the same employer and member contributions and the same annual investment returns as
       used by OPM, as well as the above proportions for allocating the CSRS pension benefits, Hay
       Group updated the projection of the Postal CSRS Fund. The result of these calculations was that,
       as of September 30, 2006, the Postal CSRS Fund value was determined to be $266.3 billion.
       This is $58.7 billion more than the amount determined using the OPM approach.

       Table A-3 shows the projection of the Postal CSRS Fund value. The columns labeled “OPM
       Methodology” were calculated by OPM using OPM’s methodology. The columns labeled
       “Years of Service Methodology” were calculated by Hay Group as described above. The
       column labeled “30-Year Payment” shows payments made by the Postal Service to fund the
       increase in the present value of future retirement benefits resulting from general pay increases.
       These payments are made in 30 equal annual installments. The column labeled “15-Year/ 40-
       Year Payment” shows payments made by the Postal Service to fund the increases in the present
       value of future retirement benefits resulting from the granting of annuitant cost of living
       adjustments. These payments are made in equal annual installments.

                                                 Table A-3
                                      Calculation of Postal CSRS Fund
                        Using the OPM Methodology and a Years of Service Methodology
                                                 ($millions)
                                                                                                        Years of Service
                                                                         OPM Methodology
                                                                                                         Methodology
         Employee &                15-Year/
Year                     30-Year               Total    Interest               USPS       Postal                    Postal
           Agency                  40-Year                         Federal                            USPS
                         Payment              Benefit     Rate               Percentage   CSRS                      CSRS
         Contribution              Payment                          Share                           Percentage
                                                                             Allocation   Fund                      Fund
1972            $899          $0        $0     $932       6.04%      $930           0%      $925           0%              $925
1973              912          0         0     1,074      5.64%      1,063          1%      1,903          2%              1,892
1974            1,043          0         0     1,318      6.07%      1,288          2%      3,062          4%              3,027
1975            1,098        561         0     1,614      6.48%      1,554          4%      4,892          6%              4,819
1976            1,600        385         0     2,353      8.74%      2,210          6%      7,225          8%              7,100
1977            1,262        507         0     2,103      6.68%      1,906          9%      9,317         10%              9,171




        24/27                                                                                       www.haygroup.com
                                                 Table A-3
                                      Calculation of Postal CSRS Fund
                        Using the OPM Methodology and a Years of Service Methodology
                                                 ($millions)
                                                                                                         Years of Service
                                                                          OPM Methodology
                                                                                                          Methodology
         Employee &                 15-Year/
Year                     30-Year                Total    Interest               USPS       Postal                    Postal
           Agency                   40-Year                         Federal                            USPS
                         Payment               Benefit     Rate               Percentage   CSRS                      CSRS
         Contribution               Payment                          Share                           Percentage
                                                                              Allocation   Fund                      Fund
1978            1,319         470          0    2,360     7.22%       2,066         12%     11,522         12%           11,382
1979            1,483         658          0    2,659     7.15%       2,242         16%     14,107         14%           14,009
1980            1,573         697          0    3,095     8.07%       2,504         19%     16,964         16%           16,967
1981            1,609         722          0    3,650     8.79%       2,818         23%     19,989         18%           20,186
1982            1,743         850          0    3,993    11.25%       2,995         25%     23,874         20%           24,319
1983            1,784         967          0    4,219    10.84%       3,058         28%     28,087         22%           28,843
1984            1,803         917          0    4,430    10.89%       3,072         31%     32,533         24%           33,702
1985            1,990       1,355          0    4,695    11.71%       3,099         34%     38,117         26%           39,843
1986            1,948       1,353          0    4,975    11.51%       3,128         37%     43,964         27%           46,396
1987            1,984       1,353          0    5,169    10.26%       3,094         40%     49,733         29%           52,998
1988            2,036       1,618        350    5,641    10.56%       3,206         43%     56,364         31%           60,674
1989            2,006       1,618          0    5,935    10.45%       3,208         46%     63,114         33%           68,662
1990            1,930       1,659         74    6,297    10.13%       3,231         49%     70,047         35%           77,043
1991            1,888       1,752        637    6,693    10.10%       3,246         52%     77,870         37%           86,575
1992            1,946       1,919        757    6,685     9.74%       3,106         54%     86,421         39%           96,980
1993            1,713       1,938        867    7,446     9.31%       3,098         58%     94,518         41%          107,403
1994            1,714       1,996      1,036    7,466     8.79%       3,013         60%    103,000         43%          118,306
1995            1,739       2,134      1,160    7,573     8.76%       2,954         61%    112,314         45%          130,221
1996            1,810       2,362        981    7,631     8.66%       2,853         63%    122,292         47%          142,991
1997            1,793       2,396      1,048    7,853     7.58%       2,799         64%    131,625         49%          155,147
1998            1,748       2,435      1,090    8,000     7.88%       2,703         66%    141,835         51%          168,482
1999            1,718       2,509        903    8,097     7.38%       2,580         68%    151,780         53%          181,675
2000            1,692       2,602        980    8,291     7.15%       2,470         70%    161,932         55%          195,283
2001            1,604       2,629      1,126    8,598     7.03%       2,387         72%    172,305         57%          209,376
2002            1,544       2,635      1,240    8,861     6.80%       2,285         74%    182,696         59%          223,705
2003            1,918           0          0    9,072     6.66%       2,157         76%    189,698         61%          234,890
2004            2,390           0        240    9,430     6.07%       2,018         79%    196,274         63%          245,758
2005            2,233           0        290    9,811     5.85%       1,933         80%    202,233         65%          256,195
2006            2,118           0        257   10,236     5.73%       1,852         82%    207,638         66%          266,320




       Table A-4 compares the Postal CSRS Fund Surplus as of September 30, 2006 under the two
       methodologies.



       25/27                                                                                         www.haygroup.com
Using the OPM methodology, the Postal CSRS Fund is $207.6 billion, the Postal Liability
(present value of all future benefits less present value of future employee contributions) is $190.5
billion. As the Fund assets exceed the liability, the result was a surplus of $17.1 billion, which
was transferred to the PSRHBF.

Using the years of service methodology, the Postal CSRS Fund is $266.3 billion, which is $58.7
billion more than the surplus that was transferred to the PSRHBF.


                                       Table A-4
                     Surplus Determination as of September 30, 2006
                                       ($billions)
                                  Postal CSRS Fund     Postal Liability              Surplus
   OPM Methodology                      $207.6              $190.5                    $17.1
   Years of Service Methodology         $266.3              $190.5                    $75.8
   Difference                            $58.7                 -                      $58.7




 26/27                                                                           www.haygroup.com
APPENDIX B – Letter from OPM in Response to the Postal
Service’s 2004 Request to Revise the Pension Liability
Allocation Methodology




27/27                                       www.haygroup.com
 
 
